November 26, 2019

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First St., NE
Washington, DC 20543

Re: Fleck v. Wetch, No. 19-670
Dear Sir:
Petitioner consents to the filing of amicus curiae briefs in this case, whether in support of either
party or of no party.
Sincerely,

Timothy Sandefur
Vice President of Litigation
Scharf-Norton Center for Constitutional Litigation
at the Goldwater Institute

Goldwater Institute | 500 East Coronado Road, Phoenix, Arizona 85004
Phone (602) 462-5000 | Fax (602) 256-7045

